      Department of Homeland Security





         Transportation Security Administration’s 

      Aviation Channeling Services Provider Project 





OIG-13-42                                      February 2013

                         OFFICE OF INSPECTOR GENERAL
                             Department of Homeland Security
                              Washington, DC 20528 / www.oig.dhs.gov


                                      FEB 22 2013

MEMORANDUM FOR: 	            John W. Halinski
                             Deputy Administrator
                             Transportation Security Administration

FROM:                        Anne L. Richards
                             Assistant Inspector General for Audits

SUBJECT: 	                   Transportation Security Administration’s Aviation
                             Channeling Services Provider Project

Attached for your action is our final report, Transportation Security Administration’s
Aviation Channeling Services Provider Project. We incorporated the formal comments
from the Transportation Security Administration in the final report.

The report contains four recommendations aimed at improving the overall effectiveness
of the Aviation Channeling Services Provider Project. Your office concurred with all four
recommendations. Based on information provided in your response to the draft report,
we consider the recommendations resolved. Once your office has fully implemented
the recommendations, please submit a formal closeout letter to us within 30 days so
that we may close the recommendations. The memorandum should be accompanied by
evidence of completion of agreed-upon corrective actions and of the disposition of any
monetary amounts.

Consistent with our responsibility under the Inspector General Act, we are providing
copies of our report to appropriate congressional committees with oversight and
appropriation responsibility over the Department of Homeland Security. We will post
the report on our website for public dissemination.

Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
Inspector General for Audits, at (202) 254-4100.

Attachment
                                      OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security
                                        

Table of Contents
Executive Summary............................................................................................................. 1

Background ........................................................................................................................ 2

Results of Audit ................................................................................................................... 4

           Aviation Channeling Services Provider Project ....................................................... 4 

           Planning and Management ..................................................................................... 5 

           Project Implementation .......................................................................................... 7 

           Project Challenges .................................................................................................. 9 

           Recommendations ............................................................................................... 10 

           Management Comments and OIG Analysis ......................................................... 11 


Appendixes


           Appendix A:           Objectives, Scope, and Methodology ........................................... 14 

           Appendix B:           Management Comments to the Draft Report .............................. 16 

           Appendix C:           Aviation Channeling Services Provider Process ............................ 23 

           Appendix D:           History of Aviation Channeling Services ....................................... 24 

           Appendix E:           Major Contributors to This Report ............................................... 25 

           Appendix F:           Report Distribution ....................................................................... 26 


Abbreviations
           AAAE                  American Association of Airport Executives
           ACSP                  Aviation Channeling Services Provider
           CFR                   Code of Federal Regulations
           CHRC                  Criminal History Records Check
           DAC                   Designated Aviation Channeler
           DHS                   Department of Homeland Security
           FAR                   Federal Acquisition Regulation
           OIG                   Office of Inspector General
           OTA                   Other Transaction Agreement
           STA                   Security Threat Assessment
           TSA                   Transportation Security Administration






                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Executive Summary
   The Honorable Bennie Thompson requested that the Department of Homeland Security
   (DHS) Office of Inspector General (OIG) conduct an audit to determine whether the
   Transportation Security Administration’s (TSA) Aviation Channeling Services Provider
   project selected vendors according to Federal policies and procedures, and effectively
   planned for the implementation of the new services.

   TSA’s Aviation Channeling Services Provider project was initiated in response to concern
   that airports and airlines should be able to choose vendors for relaying information used
   to issue airport security badges. Although TSA selected three vendors using Other
   Transaction Agreements under the authority of the Aviation Transportation Security Act,
   it did not properly plan, manage and implement the project. Specifically, TSA did not—

       •	 Document the project’s plan, roles and responsibilities, budget and spending, and
          major decisions made while implementing the project;
       •	 Establish and enforce standard testing requirements and ensure that all vendors
          test system functionality with at least one airport to identify problems prior to
          deploying the new Aviation Channeling Services Provider system; and
       •	 Ensure that project challenges were adequately addressed.

   As a result, airports nationwide experienced difficulties causing a backlog of background
   checks. To address the backlog, TSA temporarily allowed airports to issue badges
   without the required background checks. Consequently, according to records available
   for our review, at least five airports granted badges to individuals with criminal records,
   giving them access to secured airport areas. TSA did not track which airports
   temporarily issued badges to individuals without the required background checks.
   Therefore, some individuals with criminal records may still have access to secured areas
   in our Nation’s airports.

   TSA concurred with our four recommendations. TSA agreed to develop a lessons
   learned report to use for future projects showing challenges that occurred throughout
   the Aviation Channeling Services Provider project; establish a policy that requires all
   projects include a comprehensive plan; communicate customer service expectations to
   vendors and monitor their performance for accountability; and require inspectors
   during fiscal year 2013 to conduct a review of badges issued without the required
   background checks.




www.oig.dhs.gov                                 1                                  	    OIG-13-42
                                   OFFICE OF INSPECTOR GENERAL
                                       Department of Homeland Security


    Background
    TSA is responsible for protecting the Nation’s transportation systems. The agency has
    the statutory responsibility for requiring individuals who have unescorted access to
    secured areas of the airport to be properly vetted.1 This is accomplished by comparing
    the applicant’s information against Federal criminal and immigration databases to
    discern whether the applicant is a threat to transportation or national security. In
    accordance with the Code of Federal Regulations (CFR) Title 49 Part 1542, and TSA
    Aviation Security Directive 1542-04-08G, applicants are required to undergo a
    fingerprint-based Criminal History Records Check (CHRC) and have an approved Security
    Threat Assessment (STA) from TSA before receiving a badge and obtaining unescorted
    access to secured airport areas.

    TSA reported that 446 airports currently are responsible for issuing badges to employees
    for access to secured areas of the airports. As of August 27, 2012, TSA reported that
    approximately 3.7 million badged employees had access to secured areas within the
    Nation’s airports.

    The badge vetting process is initiated when the airport transfers an applicant’s
    biographical and fingerprint information to a Designated Aviation Channeler (DAC),
    referred to in our report as a vendor. The vendor ensures that the information is
    properly formatted and complete before relaying the information to TSA for vetting
    against Federal criminal and immigration databases. Appendix C provides more details
    about the Aviation Channeling Services Provider (ACSP) process.

    In 2004, TSA entered into a noncompetitive agreement with the American Association
    of Airport Executives’ (AAAE) Transportation Security Clearinghouse for relaying
    background check information for airports, air carriers, and general aviation to TSA. We
    reviewed documentation dated in 2008 that showed that constituents requested that
    TSA provide competition for these services. In 2010, TSA created the ACSP project to
    address these concerns. The goal of the ACSP project was to introduce choice and
    competition for aviation channeling services to airports and aircraft operators. We
    reviewed all other contractual agreements that TSA had with AAAE between 2004 and
    present. Although these contracts were all sole source agreements, based on the
    information provided, we found no evidence that TSA improperly favored AAAE.


    1
    A secured area is a portion of an airport, specified in the airport security program, in which certain
  security measures specified in part 1542 are carried out. Additionally, secured areas are Security
  Identification Display Areas, or a portion of an airport (specified in the airport security program) in which
  the security measures specified in part 1542 are carried out. This area includes the secured area and may
  include other areas of the airport, such as the Air Operations Area.
www.oig.dhs.gov                                           2                                                OIG-13-42
                                    OFFICE OF INSPECTOR GENERAL
                                        Department of Homeland Security


   At the time of our review, the TSA offices responsible for managing the design,
   implementation, and deployment of the ACSP project were—

       •    The Office of Security Policy and Industry Engagement – programmatic, and
       •    The Office of Intelligence and Analysis - technological.

   In 2011, TSA selected three vendors to provide aviation channeling services. This was
   done using Other Transaction Agreements (OTA) under the authority of the Aviation
   Transportation Security Act.2 The vendors TSA selected were AAAE, Telos ID, and L1
   Identity Solutions (now MorphoTrust Enrollment Solutions). The Federal Acquisition
   Regulation (FAR) does not apply to OTA agreements; therefore, TSA was not required to
   follow the FAR’s policies and regulations for full and open competition for the ACSP
   project. Yet TSA did advertise the solicitation on FedBizOpps, a public website that lists
   government contracting opportunities. TSA also performed market research and a
   review of proposals to select the three vendors for the ACSP project. All businesses had
   the opportunity to bid on the ACSP. Only five vendors applied; however, no small or
   disadvantaged businesses submitted proposals to TSA.

   As of July 1, 2012, one of the 446 airports had switched from AAAE to Telos ID for
   channeling services. The third vendor, MorphoTrust Enrollment Solutions, began the
   onboard systems functionality testing in July 2012. A timeline of the history of
   channeling services is provided in appendix D.

   The Honorable Bennie Thompson requested that DHS OIG review the solicitation and
   selection of the vendors, as well as project implementation, costs passed on to users,
   and vendor performance. This report responds to his request. Our objective, scope,
   and methodology are provided in appendix A.




   2
     Policy for the Use of Other Transaction Agreements (TSA ACQ Letter No. 2011-002). An Other Transaction
   Agreement is a set of legally enforceable promises between TSA and the other party in the agreement. It is not a
   procurement contract, grant, or cooperative agreement, and is thus not subject to many of the Federal requirements
   that apply to those financial instruments.
www.oig.dhs.gov                                            3                                                  OIG-13-42
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


   Results of Audit
   Although TSA selected three vendors using OTAs under the authority of the Aviation
   Transportation Security Act, it did not properly plan, manage, and implement the
   project. Specifically, TSA did not—

       •	 Document the project’s plan, roles and responsibilities, budget and spending, and
          major decisions made while implementing the project;
       •	 Establish and enforce standard testing requirements and ensure all vendors test
          system functionality with at least one airport to identify problems prior to
          deploying the new Aviation Channeling Services Provider system; and
       •	 Ensure project challenges were adequately addressed.

   As a result, airports nationwide experienced difficulties, which caused a backlog of
   background checks. To address the backlog, TSA temporarily allowed airports to issue
   badges without the required background checks. Consequently, according to records
   we reviewed, at least five airports granted badges to individuals with criminal records,
   which gave them access to secured airport areas. TSA did not track which airports
   temporarily issued badges to individuals without the required background checks.
   Therefore, individuals with criminal records may still have access to secured areas in our
   Nation’s airports.

           Aviation Channeling Services Provider Project

           TSA’s ACSP project is still not completely implemented and continues to face
           challenges to accomplish its mission and provide airports with a choice of
           vendors to channel STA and CHRC data for airport badging. As of July 1, 2012,
           only one of the 446 airports had switched from AAAE to Telos ID for channeling
           services. The third vendor, MorphoTrust Enrollment Solutions, was still not
           active and began the onboard systems functionality testing in July 2012.

           TSA is not tracking vendor service performance. TSA established metrics to track
           the vendor system performance in the technical specifications for the project.
           However, these performance metrics are not related to how vendors provide
           customer service for the ACSP project.

           According to the Federal Register, the Federal Bureau of Investigations charges
           $14.50 for processing a fingerprint-based criminal history record check. In the
           OTAs, TSA required the vendors to collect this fee from the airports. This is the
           only cost that TSA passes on to the airports for ACSP services.


www.oig.dhs.gov                                 4                                  	    OIG-13-42
                               OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


           Planning and Management 


           Document Project Planning and Decisions

           TSA did not have a written comprehensive plan for the ACSP project design and
           implementation. TSA maintained documentation for the solicitation and
           selection of the vendors for the ACSP project; however, it did not always
           maintain documentation to support project planning and management
           decisions. Management is responsible for establishing and maintaining internal
           control to achieve the objectives of effective and efficient operations, reliable
           financial reporting, and compliance with applicable laws and regulations.3

           Specifically, TSA did not maintain agency documentation when developing the
           ACSP concept. The only document that TSA provided as official evidence of the
           ACSP concept was a letter dated May 2008 from the Airports Council
           International-North America. The letter thanked TSA for providing the project’s
           technical specifications.

           To further examine project decisions made by TSA for the ACSP project, we
           inquired about TSA’s rationale for determining that three vendors would be
           sufficient for the services. According to the ACSP project manager, three
           vendors were selected to maintain a balance for—

               •   Providing choice and competition;
               •   The government's cost to manage, oversee, and accredit these vendors;
               •   Vendors under their no-cost OTA; and
               •   Security.

           TSA did not document management decisions or approvals throughout the
           evolution of the ACSP project. Although the ACSP project manager briefed
           senior leadership regarding the project status, there was no requirement to
           receive formal approvals from senior managers on project decisions. TSA project
           officials maintained that they did not require approvals because the ACSP project
           was not a formal acquisition program and there were no costs obligated under
           the OTA. The TSA officials asserted that the project existed as a temporary
           project under an existing program, yet could not provide evidence to support
           this claim.

           According to TSA officials, TSA developed a collaborative Integrated Project
           Team of technical and programmatic representatives throughout the agency.

   3
    Office of Management and Budget Circular A-123
www.oig.dhs.gov                                    5                                    OIG-13-42
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           This project team, with the ACSP project manager as the chair, made project
           decisions. TSA did not maintain team meeting minutes but relied on agendas as
           evidence of actions assigned to each responsible member of the team.

           Formally Document Roles and Responsibilities

           TSA designated program managers responsible for the Office of Security Policy
           and Industry Engagement and Office of Intelligence and Analysis portions of the
           project. However, TSA did not identify a senior official responsible for oversight
           of these two offices and the project overall, leading to implementation problems
           and limited accountability.

           The ACSP concept was developed under the legacy Transportation Threat
           Assessment and Credentialing office, which no longer exists within TSA. At the
           time of our review, the technical services and support for the ACSP project were
           performed by TSA’s Office of Intelligence and Analysis. Program management of
           the ACSP project was performed by the Office of Security Policy and Industry
           Engagement.

           TSA did not have documentation that provided the ACSP project manager with
           the authority to make project decisions. We reviewed the position descriptions
           for key officials involved with implementing the ACSP project. The roles and
           responsibilities were not clearly defined, which presented a problem regarding
           project oversight. TSA assigned roles and responsibilities on an ad hoc basis
           through the Integrated Project Team. The team’s meeting agendas included
           action items, which were assigned to an office and specific individuals involved in
           the ACSP project.

           As we attempted repeatedly to identify information sources and decision
           makers, TSA identified three different officials responsible for leading the ACSP
           project. Originally, TSA identified the ACSP project manager as the responsible
           official. The agency later identified the Office of Security Policy and Industry
           Engagement Assistant Administrator as the responsible official and finally
           directed us to the new Acting Branch Manager for the Office of Security Policy
           and Industry Engagement Program Management, Transportation Workers
           Vetting Division.




www.oig.dhs.gov                                 6                                       OIG-13-42
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Document Project Costs

           TSA did not track and report all project costs related to implementing the ACSP
           project. TSA was only able to provide supporting documentation for project
           costs expended for the IBM Organizational Application Support and Information
           Services contract. This contract was issued to provide maintenance and
           production support to several screening services application programs. The
           screening services application programs included the Consolidated Screening
           Gateway, the system in which the selected vendors are required to provide the
           CHRC and STA data for processing by TSA.

           TSA could not provide documentation to support the costs incurred to perform
           certification and accreditation testing of the selected vendors’ systems.
           Although TSA maintained that costs to conduct certification and accreditation
           were a factor in selecting only three vendors, it did not develop an analysis of
           certification and accreditation costs or document costs incurred for the ACSP
           project. According to TSA officials, it was impossible to provide exact costs
           because the expenditures were not tracked in detail. However, those costs were
           incurred by TSA and should have been documented as allocated costs to the
           ACSP project.

           Since TSA did not maintain documented project decisions for selecting only three
           vendors or for other project costs, it is unable to establish whether more
           vendors could have been acquired for the ACSP project. Furthermore, TSA
           cannot be sure that it has not incurred unplanned additional costs.

           Project Implementation

           Standard Testing Requirements

           TSA did not establish standard testing requirements, nor did the agency require
           that all vendors test system functionality with at least one airport. Although TSA
           required all vendors to complete system security testing and functionality
           readiness testing prior to providing channeling services to airports, the agency
           did not provide clear guidelines on the testing completion requirements.

           TSA required the vendors to have the following types of testing to receive an
           authority to operate from TSA and deploy their system for aviation channeling
           services:




www.oig.dhs.gov                                7                                        OIG-13-42
                                OFFICE OF INSPECTOR GENERAL
                                   Department of Homeland Security


                  •	 Federal Information Security Management Act’s Certification and 

                     Accreditation system security testing managed by TSA’s Office of 

                     Information Technology, and 


                  •	 On-board system functionality readiness testing managed by TSA’s Office
                     of Intelligence and Analysis.

           In August 2011, TSA was ready to begin the onboard testing phase for the
           selected vendors; however, according to TSA ACSP project officials, Telos ID and
           AAAE were not ready until several months later. The third vendor, MorphoTrust
           Enrollment Solutions, had not completed testing at the time we completed
           fieldwork. Since TSA did not establish testing timeframe requirements, the
           agency could not hold the vendors accountable for delaying the ACSP project
           schedule. According to TSA ACSP project officials, TSA did not provide specified
           requirements for vendors to complete testing because a Federal contract was
           not used and TSA did not pay the vendor for the ACSP services.

           Both AAAE and Telos ID successfully passed the testing portion and received the
           authority to operate by TSA’s Office of Information Technology. On March 9,
           2012, Telos ID completed 100 percent of the on-board testing and received the
           authority to operate. The vendor submitted test plans, which included a Test
           Readiness Review Checklist to document the success or failure of testing 72
           different test case scenarios. In addition, Telos ID completed all 72 test case
           scenarios and an airport volunteered to conduct pilot testing with them, which
           assessed their system’s transmittal of data to and from the airport.

           At the time TSA activated the AAAE DAC system, the vendor completed
           25 percent of the on-board system functionality testing and currently is providing
           services under the ACSP project. AAAE did not submit a Test Readiness Review
           Checklist and only completed 18 of the 72 test case scenarios. TSA officials
           explained that AAAE was not subject to the same system functionality testing as
           the new vendors because AAAE was the sole provider for aviation channeling
           services prior to the new DAC system. TSA officials further indicated that fully
           testing AAAE would have disrupted channeling service operations and prevented
           other vendors from offering these services.

           Without establishing or enforcing standard testing requirements, TSA cannot
           ensure that all systems were functioning properly before the project was
           deployed.



www.oig.dhs.gov                                   8                                	      OIG-13-42
                            OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


          Project Challenges


          Alternate Measures

          On April 2, 2012, TSA deployed the new DAC system, which offered two vendors
          for aviation channeling services—AAAE and Telos ID—under the ACSP project.
          As a result of the inadequate testing, airports began to experience significant
          problems with the new DAC system. For instance, TSA was not receiving
          enrollment data and badging offices could not see results in AAAE’s DAC system.
          Airport operations were hindered because of aviation workers’ inability to access
          secured areas without proper badge authority. To resolve the backlog of badges,
          TSA issued an “Exemption from TSA Regulations and Alternate Measures to
          Security Directive 1542-04-08 series.”

          The alternate measures gave airports the option to issue badges without the
          federally required CHRC and STA background checks. The alternate measures
          covered the period from April 20 to June 1, 2012 and applied to security badge
          applications submitted by the airports and waiting on results of CHRCs and STAs.
          However, aviation workers who were issued badges were required to have their
          badges revoked if after 14 days TSA had not received their CHRC or STA results.

          TSA did not track which airports used the alternate measures and the number of
          badges that were issued under those measures. After an inquiry by our office,
          the Office of Security Operations initiated a survey in which TSA relied on the
          airports to self-report whether they decided to operate under the alternate
          measures and to track employees who were not fully vetted. The Office of
          Security Operations reported that of the 446 airports nationwide, 290 responded
          to Office of Security Operation’s request and 168 airports self-reported that they
          adopted the alternate measures. Five of the airports identified a total of 11
          individuals with criminal backgrounds, who received badges during the alternate
          measures period and would not have received badges if they had been properly
          vetted. Five of those individuals held their badge for more than 14 days, and
          therefore those airports were not in compliance with the alternate measure.

          TSA could have better informed airports on the program challenges. TSA did not
          inform the airports of the difficulties that were limiting the airport’s choice of
          vendors. Instead, TSA simply posted information on its WebBoard regarding
          available vendors without providing current project status and vendor availability.

           TSA could have improved communication with the vendors involved. For
           example, TSA did not promptly address AAAE regarding its deployment issues
           and the subsequent backlog of badges at airports nationwide. TSA’s Office of
www.oig.dhs.gov                              9                                       OIG-13-42
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Security Policy and Industry Engagement met with AAAE to discuss performance
           issues. TSA considered sending AAAE a deficiency letter in May 2012. However,
           TSA officials informed us that they chose not to send the letter and would manage
           the performance of AAAE under their OTA in a “partnered-centered approach vs.
           issuing a derogatory letter (e.g., cure notice or letter of remediation) given TSA’s
           long-term and strategic partnership with AAAE in the area of aviation security.”

           Without explanation, TSA issued a modified version of the deficiency letter and
           considered it a performance letter dated September 6, 2012, which identified
           seven customer service and technology performance issues associated with
           AAAE. Although both parties discussed performance issues previously, according
           to AAAE officials, they were not informed of these seven particular matters until
           they received this formal letter. They further stated that these ACSP project
           issues were not discussed even though TSA and AAAE had a working group in
           which ACSP project issues were discussed weekly.

           Conclusion

           Without appointing a designated responsible official for the ACSP project, TSA’s
           limited planning, management, and implementation led to deploying a system
           that did not provide the choice in vendors that TSA had intended. Without TSA's
           ability to maintain documented project decisions for selecting only three
           vendors or for other project costs, it is unable to establish whether more
           vendors could have been acquired for the ACSP project. Furthermore, TSA
           cannot be sure that it has not incurred unplanned additional costs.

           The need for better managed implementation of the ACSP project led to a
           backlog of vetting for individuals applying for badges that still existed at the time
           of our review. TSA did not track which airports temporarily issued badges
           without the required background checks. Therefore, individuals with criminal
           records may currently have access to secured areas in our Nation’s airports.

           Recommendations

           We recommend that the Transportation Security Administration’s Deputy
           Administrator:

           Recommendation #1:

           Develop a lessons learned report for future projects to show challenges that
           occurred throughout the Aviation Channeling Services Provider project. This

www.oig.dhs.gov                                 10                                        OIG-13-42
                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           should include improving comprehensive system functionality testing of the
           channeling process and developing a resolution plan to address unresolved issues.

           Recommendation #2:

           Establish a policy that requires all projects include a comprehensive plan that—

               •	 Designates an official(s) responsible for overall project status and 

                  completion; 

               •	 Documents decisions made throughout all phases of the project’s design,
                  selection, testing, implementation, communication, and oversight; and
               •	 Tracks and reports all project costs.

           Recommendation #3:

           Immediately communicate customer service expectations to vendors and
           monitor their performance for accountability. This would include establishing a
           formal process or survey schedule to obtain feedback from vetting project
           stakeholders on vendor performance, services, and other related concerns.

           Recommendation #4:

           Conduct a comprehensive review of badges issued under the “Exemption from
           TSA Regulations and Alternate Measures to Security Directive 1542-04-08
           series.” Create a detailed report identifying the locations and badges involved in
           the use of alternate measures and the actions taken to ensure all badges issued
           during the backlog have been issued in accordance with Federal requirements
           and the proper security checks.

           Management Comments and OIG Analysis

           TSA provided formal comments to our report. A copy of TSA’s response in its
           entirety is included as appendix B. TSA also provided technical comments and
           suggested revisions to our report in a separate document. We reviewed the
           technical comments and made changes in the report when appropriate.

           TSA indicated that it has delivered on its promise to provide airports and aircraft
           operators with a choice of service providers and to provide selected businesses
           the opportunity to offer their services for work that had been sole-sourced to a
           single provider. TSA also noted that it properly selected three vendors as part of
           the ACSP Project, and the TSA process allowed market forces to drive the
           provision of choice for airports and air carriers and support competition among
www.oig.dhs.gov                                 11                                 	     OIG-13-42
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           qualified business entities. The agency provided additional information to
           explain how it addressed the ACSP challenges and required testing. TSA
           concurred with all four recommendations, and has begun to formulate plans to
           implement the recommendations contained in the report. A summary of the
           responses and our analysis follows.

           Response to Recommendation #1: TSA concurs. TSA will create a lessons
           learned report that is based on the specific experience and challenges faced
           throughout the ACSP Project. The report will address comprehensive testing
           requirements and develop a plan to address unresolved issues within TSA’s
           scope of authority and responsibility. TSA expects to complete this lessons
           learned report by May 2013.

           OIG Analysis: The recommendation will remain open and resolved until we have
           reviewed a copy of TSA’s lessons learned report.

           Response to Recommendation #2: TSA concurs. TSA will use the existing
           management control system or establish a policy that requires all projects to
           include a plan that designates the office or person responsible for the project’s
           overall status and completion, documents key decisions, and which identifies
           and tracks all estimated project costs. TSA expects this recommendation to be
           implemented by August 2013.

           OIG Analysis: The recommendation will remain open and resolved until we
           review the planned policy and ensure that it comprehensively addresses the
           identified concerns.

           Response to Recommendation #3: TSA concurs. TSA will reiterate its customer
           service expectations to the DACs and establish a process to periodically solicit
           feedback from stakeholders on vendor performance. The TSA Office of
           Acquisition will communicate by letter to all three DACs to re-emphasize the
           customer service expectations as an element of their responsibilities as a DAC
           provider. TSA will evaluate options on the best method to conduct a practical
           and viable survey, giving particular consideration to the most effective means of
           survey distribution. TSA is considering disseminating the survey through one or
           more airport associations or the airport Federal Security Directors. The
           associations will be engaged well in advance of the launch of the survey, to
           collaboratively establish a pathway to achieve a significant percentage of airport
           participation, as completion of the survey will be voluntary for the airports and
           aircraft operators. The first survey would be distributed in approximately
           6 months, allowing airports adequate time to evaluate vendor performance.

www.oig.dhs.gov                                12                                       OIG-13-42
                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


           Once survey feedback is obtained, if the input indicates a failure of a specific DAC
           to meet OTA service expectations, TSA will address the issue with that DAC to
           establish accountability and result in improved performance. Target dates for
           implementation are in development.

           OIG Analysis: The recommendation will remain open and resolved until we
           examine evidence of communication and survey activity within 6 months. We
           need to verify that TSA is communicating customer service expectations to
           vendors and monitoring their performance for accountability. This would include
           establishing a formal process or survey schedule to obtain comments from
           vetting project stakeholders on vendor performance, services, and related
           concerns.

           Response to Recommendation #4: TSA concurs. At the time the exemption and
           alternative measure was implemented on April 20, 2012, TSA’s Office of Security
           Operations planned to determine and eliminate any security vulnerabilities
           potentially created by the waiver period. Per the exemption and alternative
           measure, airport operators were required to deactivate any badge issued during
           the waiver period if no results were returned at the end of 14 days or if results
           returned showing the individual ineligible for a Security Identification Display
           Area badge.

           Additionally, airport operators were required to manually check the names of all
           individuals against the TSA “No-Fly” and “Selectee” lists prior to issuing the
           badges. After the waiver period ended on June 1, 2012, TSA required airport
           operators to confirm whether the airport issued a badge to an individual who
           was later found to have a disqualifying offense. Transportation Security
           Inspectors then verified that all badges issued to individuals with a disqualifying
           offense were deactivated. TSA will direct that during fiscal year 2013, as part of
           their annual inspection plans, inspectors nationwide must focus on the waiver
           period when inspecting secured and sterile area badge issuance and compliance.

           OIG Analysis: The recommendation will remain open and resolved until we
           review evidence and details of the Inspections. We need to verify that TSA
           identified all individuals who obtained badges during the period of time when
           the use of alternate measures was permitted. We will review the actions taken
           to ensure that TSA issued all badges during the backlog in accordance with
           Federal requirements and with the proper security checks.




www.oig.dhs.gov                                13                                        OIG-13-42
                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


   Appendix A 

   Objectives, Scope, and Methodology 

   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
   to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   In response to a congressional request, we conducted an audit of the recent contractual
   arrangements for vetting services under the TSA ACSP project and the new design of the
   project. Our objective was to determine whether TSA’s ACSP project selected vendors
   according to Federal policies and procedures, and effectively planned for the
   implementation of the new services.

   We performed work at TSA headquarters in Arlington, VA, and at TSA’s Office of
   Intelligence and Analysis in Annapolis Junction, MD, to meet the audit objective. We
   reviewed the contractual relationship established in April 2011 with AAAE, and in March
   2011 with L-1 Identity Solutions (now MorphoTrust Enrollment Solutions) and Telos ID,
   to determine whether TSA followed Federal policies and procedures, as well as DHS-
   and component-specific guidance related to acquisition and implementation. We also
   examined prior audit reports to identify deficiencies related to AAAE’s performance as
   sole source channeling vendor prior to the ACSP project.

   We interviewed TSA staff responsible for the management, oversight, and execution of
   the ACSP project in the following offices: the Office of Security Policy and Industry
   Engagement, the Office of Intelligence and Analysis, the Office of Information Technology,
   and the Office of Acquisition. We requested all documentation pertaining to the project
   and its implementation.

   We interviewed officials from the three aviation badge-vetting vendors awarded
   agreements with TSA to identify the services offered and the costs passed on to the
   airports. We met with Airports Council International-North America to identify the level
   of communication and outreach TSA applied to the project. We judgmentally selected
   and interviewed aviation officials at the following eight airports, which either had
   changed vendors or were possibly considering changing vendors: Austin Bergstrom
   International Airport, Honolulu International Airport, Oakland International Airport,
   Indianapolis International Airport, Sacramento International Airport, Mineta San Jose
   International Airport, San Francisco International Airport, and St. George Municipal
   Airport. We also judgmentally selected three airports to visit located close to our duty
   stations: Ronald Reagan Washington National, Philadelphia International Airport, and
www.oig.dhs.gov                               14                                       OIG-13-42
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Miami International Airport, and interviewed aviation badge-vetting officials to
   determine whether the airports were interested in changing vendors and to discuss
   their experience with AAAE, the previous sole source provider.

   We conducted this performance audit between April and September 2012 pursuant to
   the Inspector General Act of 1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              15                                     OIG-13-42
                                       OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security


   Appendix B
   Management Comments to the Draft Report


                                                                                                      u.s.   lkp.,,'u.... t "rU,,",p.fqall Sn~ri:l:y
                                                                                                      50! Smlfh    12lhlill<:~"\




                                                                                          ';8 '
                                                                                                      Arion"""". VA :::!QS9S



                                                                                                    TriUlSportation
                                                                                          '"      ' Security
                                                                                          '~ __"J' Administration
                   JAN '5 2013


                                                               INFORMATION


              MEMORANDUM FOR:                                 Anne 1.. Ri~hards
                                                              Assistant Inspector Gene-raj for A,udits
                                                              U.S. Department of Homeland Security (D'HS)

              FROM:                                           J.W. Halinsk..icl..-
                                                              Deputy Admi~mtor

              SUBJECT:                                        Response 10 Drafi Report. TrampOrllttion Sf:c.:uriIY
                                                              Adminj,m'ation 's ,4\'iotion Channeling Services Provider
                                                              Project, November 20 I 2




              Thi.s memot'"dIldum l:ons:lihlieS the T ....dn!!-ll~lr l ali(m Secllrily   Adllljnj~tration's    erg,.\ } Te!""ponse 10
              t11e DHS Ofli~ ofthe lnspeetor General (DIG) drnft report. Transportation Security
              Admini...lrariotl '.~ Aviation Channeling Services Provider Pn4ect, dated November 2012.

              Had(gmund

              In Apri120!2, in response to a Congressionnl requesl, OIGcondueted an audit of recent
              COlllractual arrangements for vetti.ng services under TSA's Aviation Chamlcliflg Services
              Provider (AL'SP) Project and il~ new design. OIU' :-! objective was to determinc whelilt!f TSA's
              ACS P Pn~iecl ,~lecl.cJ 'Veodors accmding lJ., Federul policies ~md pruct!dures aDd ellb.:tively
              plonned tOr Ihe impJementation of new ser..:ices.

              Disc\lssion

              The ACSP Project supports most ofthe Nation's 450 airports. 6S U .S, t1.eggc.d air ('.arricrs, and
              19,000 g\:ncral aviation airpolis. TSA greatly apprccialcs the work done by 010 dUIing the
              course of this review and inhmds to usc this valuable informarioJl 10 Assist our efforts 10 continue
              to improve 'TSA and aviatiol) worker vetting.




www.oig.dhs.gov                                                      16                                                                                OIG-13-42
                                    OFFICE OF INSPECTOR GENERAL
                                         Department of Homeland Security




                                                                                                                     2


              TSA's ACSP Project Has Delivered on its Primanr Purpose

              The ACSP Project's primary purpose was to provide airports and aircraft operators a choice of
              service providers and to provide selected businesses the opportunity to offer their services for
              work that had been sole-sourced to a single provider. The ACSP Project also made important
              technical enhancements to TSA S technical infrastructure that added to the overall efficiency and
                                               1


              effectiveness of the security threat assessment process. For example. ACSP enabled data
              transfer ,,'lith multiple service pwviders; transitioned from outdated file transfer processes to a
              morc effident web services interface; and replaced the existing disparate and bifurcated vetting
              application processes with a new process based on one complete package. providing enhanced
              identity management capabilities.

              As a result of the ACSP Project allowing more choice in service providers. seven of the Nation's
              airports and the entire General A viatiun popuiation are using a new service provider or
              Designated Aviation Channeler (DAC), with (WO additional airports scbeduled to change service
              providers in January 2013. Each of the seven airports experienced a smoodl and seamless
              transition to a new DAC with no customer sen ice issues, no delays or backlogs in applicanL
              vetting (vetting results returned within 24 hours), and a reduction in fingerprint capture issues.

              TSA. Pronerly Selected Vendor!> 10rthe ACSP Project

              As confirmed by the DJ-IS 01G, TSA properly selected vendors for the ACSP Project according
              t(11'SA and Federal policies and procedures, and used an effective source selection process to
              implement the ACSP Project In addition, the DH$ OIO determined that 1'$A did not unfairly
              favor the American Association of Airpon Executives (AAAE), the incumbent provider, TSA's
              use of a no~cosl Other Transaction Agreement (OTA) was an innovative and cost~effective
              method to allow aviation users to obtain imponant aviation security services from qualified
              vendors. While not a contract, the DAC OTA established legally enforceable agreement., that
              included a tennination Jor cause provision, The OT A required the vendor to comply with all
              requirements stated within the OTA including the technical specifications, security standards,
              and OTA cited regulations and references.

              TSA tleteITTJined that it would select three DACs as part of the ACSP Project, and the TSA
              process allowed market forces to drive the provisilm of choice for airporLs and air carriers and
              support competition among qualified busine::'!:i entities. EVi:!ll though tb!.': Federal Acquisition
              Regulation (FAR) did not apply to the OT A, TSA applied F AR~based procedures to complete
              market research and advertised in FcdBizOpp to solicit proposals in an open a.'1d impartial
              manner. TSA also applied FAR-bused principles and source selection best practices to evaluate
              all the proposals against the stated technical and management evaluation criteria.




www.oig.dhs.gov                                               17                                                         OIG-13-42
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                                                                                                                  3


                  TSA selected the three most qualified offerors that demonstrated their ability and technical
                  readiness to satisfy the requirements ofthe ACSP DAC.

                  TSA Ensured Project Challenges Were Addressed

                  The goal of ACSP was to replace a sole-source environment with one that gave the av-iation
                  stakeholders a choice of service providers, This goal drove TSA's dec,isions and approaches in
                  addressing challenges.
                  Any testing delays only impacted the projected schedule as to when TSA could provide a choice
                  of service providers to aviation stakeholders. TSA kept its focus on establishing multiple
                  operational DACs to end the sole~source arrangement. TSA could have heJd the vendors
                  accountable tor delaying the ACSP Project schedule by tenninating the OTA with the DAC, mit
                  it would not have allowed TSA to achieve its objective of providing choice to the aviation
                  community.

                  From the project's inl:eption, TSA used a cms...... runctional Integrated Project Team OPT)
                  composed of representatives from across TSA to help effectively manage the scope and scale of
                  the project. The IPT worked together to create the technical and business requirements that
                  fanned the basis for ACSP. The IPT worked expeditiously through issues with subject matter
                  experts from affected TSA organizations. This helped ensure issues were tracked and referred to
                  the proper TRA nrgani:t:atinn in a timely maImer.

                  Throughout the project, the ACSP IPT worked through issues in an effective and collaborative
                  fashion. The ACSP 1PT was empowered by senior leadership to make infonned, resfX}flsible
                  recommendations and decisions, and the IPT ensured TSA Senior Lenders were kept infonned
                  via regular, bi-weekly progress briefings.

                  TSAEstablished Onboard Testing Requirements with all Designated Aviation Channelers

                  TSA established onboard testing requirements and testing timeframes between TSA and the
                  DACs, and did not include testing between DACs and their respective airports as part of the
                  ACSP Project. The scope of the testing was specific to the DACs and TSA because each DAC
                  must individually negotiate arrangements with aviation stakeholders. Each DAC is responsible
                  for ensuring the aviation stakeholder data is transmitted to TSA Olld meets TSA technical
                  specifications. The onboard testing requirements and guidelines were clearly documented in a
                  variety of project documents. to include: ACSP Test and Evaluation Master Plan, ACSP Test
                  Scenarios, DAC Onboard Test ScenaIios, each DAC's Test Plan. ACSP Onboard Test Summary.
                  DAC Integration Testing Summary, and each DAC's own lest schedule.

                  Consistent with the technical reqtiirements and OTA, TSA required onboard testing of the form
                  and manner of data-exchange between the DAC providers and TSA to ensure the establishment




www.oig.dhs.gov                                                18                                                     OIG-13-42
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                                                                                                                  4

                  ofa standard daTa interface. TSA'5 approach and scope for onboard testing did not Include
                  interfaces between DACs and their respective airports for the reasons stated above. TSA
                  performed onboard Test Readiness Reviews with each DAC to specify what was expected and to
                  determine the readiness of the DAC to begin testing. In addition, test scenarios were devetoped
                  and communicated to each DAC to guide the testing process. The TSA technicai specifications,
                  test scenarios, and test cases were clear and sut1icient for the purpose and scope ofthe ACSP
                  Project, muncly to demonstrate a DAC's ability to confonn to TSA technical specifications and
                  test requirements for transmitting applicant data to TSA for vetting purposes.

                  At the close of the initially established testing timeframe, only one DAC, Telos ID, had
                  completed testing with TSA. To not proceed with the system cut-over as·scheduled would have
                  increased technical DAC testing support costs, maintained the sole-source arrangement with
                  fu\AE, and etJectively prevented T'SA from ot1ering il choice in service providers to aviation
                  stakeholders via the first qualified DAC, Telos ID. During testing, AAAE had successfully
                  transmitted 'enrollment' transactions. 'update biographic' transactions, and 'cancel enrollment'
                  transactions to TSA. These transactions represented the most critical test scenarios and
                  25 percent of total lest cases Jor the ACSP Pmject. The decision to proceed with the system cut w




                  over on April 2, 2012, considered that AAAE had successfully performed the enrollment
                  function for the aviation sector for approximately a decade, had served as the exclusive system of
                  record for aviation workers since inception, had successfully completed the rigorous certification
                  and accreditation (C&A) process, and successfully demonstrated its ability to submit enrollment
                  transactions to TSA during onhoard testing between TSA and AAAE,

                  TSA Immectnrs Confirm Control of Badges Issued During Waiver Period

                  Finally, teclmical issues between aviation stakeholders and the incumbent DAC, AAAE, resulted
                  in a backlog of badges while TSA transitioned to n new DAC system. As a result of this
                  backlog, TSA issued an exemption from TSA regulations and provided airports with alternate
                  measures to issue badges without the federally required background checks. At the time the
                  exemption and alternative mea'iures were implemented, TSA began strategizing how to later
                  evaluate the airport operators' compliance. The waiver and altemalivt; measure deliberately
                  required the airport operator to conduct a fbllow·up verification on each badge issued during the
                  exemption period. The verification was 10 ensure that the individual ultimately received all
                  required background cbecks with any verification problems requiring that the issued badge be
                  revoked. TSA Inspectors in local field offices contacted each airport's security coordinator, who
                  is designated by the airport in accordance witb 49 eFR 1542.3(b) to review and control the
                  results of background checks, to verify the airport had in fact ensured all background checks
                  were completed. As a re~mlt or the review, TSA wa."> ahle to confirm that airport operators had
                  controlled badges as required,




www.oig.dhs.gov                                                19                                                      OIG-13-42
                                      OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security




                                                                                                                5


                  Conclusion:

                  TSA recognizes the important issues set forth in this report and is committed to working to
                  address these issues. TSA has already begun to formulate plans to implement the
                  recommendations contained in the report. Our specific response to each recommendation
                  follows.




www.oig.dhs.gov                                                20                                                   OIG-13-42
                                       OFFICE OF INSPECTOR GENERAL
                                            Department of Homeland Security




                                             U.S. Department nfHomeland Securit:y
                                          Transportation Security Administration (TSA)

                                                   Response to OIG Draft Report,
                      Transportation Securi(l-' Administra1irm 's Aviation Channeling Services Pro't'ider Project-
                                                            November 2012

                  Recommendation #1: Dt:vt:lop <l lessons le<lmed report for future projects to show challenges
                  that occurred throughout the ACSP Project. This should include improving comprehensive
                  system functionality testing of the channeling process and developing a resolution plan to
                  address unresolved issues.

                  TSA Concurs. TSA will create a lessons learned report that is based on the specific experience
                  and challenges faced Ihroughoutthe ACSP Projt:ct. TSA will address comprehensive
                  functionality testing opportunities and develop a plan to address unresolved issues within TSA's
                  scope of authority and responsibility, TSA expects to complete this lessons learned report by
                  May 20l3.

                  Recommendation #2: Establish a. policy that requires all projects include a comprehensive plan
                  that:
                      •   Designates an official(s) responsible for ovt!rall projecl status and completion;
                      •   Documents decisions made throughout all phases of the project's design, selection,
                          testing, implementation, communication, and oversight; and
                      •   Tracks and repm1s all prQject costs.

                  TSA Concurs. TSA will harness the existing management control system or establish a policy
                  that requires all projects to include a plan that designates the office or person responsible for the
                  project's overall status and completion. documents key decisions, and which identifies and tracks
                  all estimated project costs. TSA expects this recommendation to be implemented by August
                  20lJ.

                  Recommendation #3: Immediately communicate customer service expectations to vendors.
                  This would include establishing a formal process nr survey schedule 10 ohtain ft':edbi-lck from
                  vetting project stakeholders on vendor performance, services, and other related concerns.

              TSA Concurs. TSA win Tt:iterale its cu~i.omer service expectations to the DACs and establish a
              process to periodically solicit feedback from stakeholders on vendor performance.

              The TSA Office of Acquisition will communicate by letter to all three DACs to re-emphasize the
              customer service expectations as an element of their responsibilities as a DAC provider.

              TSA will undertake an evaluation of options on how best to conduct a survey that is practical and
              viable. giving particular consideration to the most effective means of survey distribution. TSA is
              considering disseminating the survey through one or more airport associations or the airport
              Federdl Security Directors. The associations will he engaged well in advance of the launch of




www.oig.dhs.gov                                                  21                                                       OIG-13-42
                                        OFFICE OF INSPECTOR GENERAL
                                             Department of Homeland Security




                                                                                                                       2

                  the !>'ulvey, to collaboratively establish a pathway to achieve a significant percentage of airport
                  participation, as compldllln ()f the survey will be voluntary for the airports and aircraft operators.

                  The first survey would be distributed in approximately 6 months, allowing airports adequate time
                  to evaluate vendor performance.

                  Once SUt"\lCy feedback is obtained, if the input indicates a failure of a specific DAC to meet OTA
                  service expectations, TSA via OA will address the issue with that DAC to establish
                  accountability and result in improved perfonnance. Target dates for implementation are in
                  development.

                  Recommendation #4: Conduct a comprehensive and thorough review of badges issued under
                  the "Exemption from TSA Regulations and Alternate Measures to Security Directive 1542-04-08
                  series." Create a detailed report identifying the locations and badges involved in the use of
                  alternate measures and the actions taken to ensure all badges issued during the backlog have
                  been issued in accordance with Federal requirements and the proper security checks,

              TSA Concurs: At the lime the exemption and alternative measure was implemented on

              April 20, 2012, TSA's Office of Security Operations planned for dctcnnination of and
              elimination of any security vulnerabilities potentially created by the waiver period. Per the
              exemption and alternative measure, airport operators were required to deactivate any badge
              issued during the waiver period if either no results were returned at the end of fourteen (14) days
              or if results returned showing the individual ineligible for a Security Identification Display Area
              (SlDA) badge. Additionally, airport operators were required to manually check the names of all
              individuals against the TSA "No·Fly" and "Selectee" lists prior to issuing the badges. After the
              waiver period ended on June 1,2012, TSA required airport operators to confinn hy July 13.
              2012, whether or not the airport issued a SIDA badge to an individual who was later found to
              have a disqualifying offense. Transportation Security Inspectors (ISIs) then verified that all
              badges issued to individuals with a disqualifying oftense were deactivated. Going fOIv,rard, TSA
              will direct that during Fiscal Year 2013, as patt of their annual inspection plans, TSIs nationwide
              must fOCus on the waiver period when inspecting SIDA and sterile area badge issuance and
              compliance.




www.oig.dhs.gov                                                  22                                                        OIG-13-42
                            OFFICE OF INSPECTOR GENERAL
                               Department of Homeland Security


   Appendix C
   Aviation Channeling Services Provider Process




   Source: TSA Office of Security Policy and Industry Engagement 





www.oig.dhs.gov                              23                      OIG-13-42
                     OFFICE OF INSPECTOR GENERAL
                        Department of Homeland Security


   Appendix D
   History of Aviation Channeling Services




   Source: DHS OIG



                                         Acronyms

                                         AAAE:   American Association of Airport Executives
                                         ACSP:   Aviation Channeling Services Provider
                                         ATO:    Authority to Operate
                                         FAA:    Federal Aviation Administration
                                         FOC:    Full and Open Competition
                                         OIT:    Office of Information Technology
                                         OTA:    Other Transaction Agreement
                                         RFP:    Request for Proposal
                                         SBSS:   Security Background Screening Services
                                         SSA:    Sole Source Agreement
                                         TSC:    Transportation Security Clearinghouse




www.oig.dhs.gov                     24                                                   OIG-13-42
                          OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


   Appendix E
   Major Contributors to This Report
   Patrick O’Malley, Audit Director
   Shelley Howes, Audit Manager
   Shamika Scott, Auditor-in-Charge
   Megan McNulty, Program Analyst
   Marissa Weinshel, Program Analyst
   Kevin Dolloson, Communications Analyst
   Kevin Donahue, Referencer




www.oig.dhs.gov                             25                  OIG-13-42
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   Appendix F
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Acting Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Transportation Security Administration

   Administrator
   Assistant Administrator, Office of Security Operations
   Transportation Security Administration Audit Liaison

   Congress

   Congressional Oversight and Appropriations Committees, as appropriate




www.oig.dhs.gov                                  26                        OIG-13-42
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to: DHS Office of Inspector General, Attention: Office of Investigations Hotline, 245
Murray Drive, SW, Building 410/Mail Stop 2600, Washington, DC, 20528; or you may
call 1 (800) 323-8603; or fax it directly to us at (202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
